                                                   Export-Import Bank
O s v a l d o L . Gratacos
I n s p e c t o r General                          of the United States

                                                      May 27, 2014

   Michael P. Stephens, Acting Inspector General
   Federal Housing Finance Agency
   Office of Inspector General
   400 7th Street. SW
   Washington, DC 20024


   Dear Mr. Stephens:
           The Export-Import Bank of the United States (Ex-Im ) OIG is in receipt of the Federal
   Housing Finance Agency (FHFA) OlG's Peer Review Report of the Ex-Im OIG. Office of
   Investigations (Of), dated May 22. 2014. Ex-Im OIG thanks the FHFA OIG for their
   professional, insightful, and thorough review of Ex-Im OIG-OI.
           FHFA OIG's documented successes in investigating complex mortgage fraud and
   financial fraud schemes enabled FHFA OIG to provide suggestions to Ex-Im OIG-OI to improve
   administrative best practices in Ex-Im OIG-OI investigative operations. Ex-Im OIG-OI has
   already implemented the suggested administrative improvements and will continue to seek out
   advice and improvements from FHFA OIG and other OIG Offices.
          Formally established in 2007 and staffed with four federal agents/criminal investigators
   in January 2009, OI has made great strides in combatting waste, fraud, and abuse in Ex-Im
   programs. Since January 2009, Ex-Im OIG has obtained 71 indictments and criminal
   informations and over $278 million in criminal fines, forfeiture, restitution, and cost
   savings/direct repayments to Ex-Im.
           Armed with FHFA OIG's suggestions and through the assistance of the Inspector General
   Community, Ex-Im OIG will continue to strive to improve and protect tax payer funds at risk.
   Ex-Im OIG sincerely appreciates FHFA OIG's detailed review. FHFA OIG's unparalleled
   professionalism, attention to detail, and knowledge reflect highly on the FHFA OIG and the
   entire Inspector General Community.
          Please feel free to contact me with any questions or concerns at (202) 565-3908. As
   always, I look forward to working with your office on matters of mutual concern.


                                                         Sincerely,


                                                         Osvaldo L. Gratacos
                                                         Inspector General




                      811 V e r m o n t A v e n u e . N . W . W a s h i n g t o n . D . C .   205 71
